}
No.:

IN THE
SUPREME COURT OF THE UNITED STATES

EMMANUEL PEREZ - PETITIONER
vs.
STATE OF NEBRASKA - RESPONDENT

PROOF OF SERVICE
I, Darik J. Von Loh, do swear or declare that on this date, August 2, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by deliver to a third-party commercial carrier for
delivery within 3 calendar days:
The names and addresses of those served are as follows:
Attorney General of Nebraska
2115 State Capitol
Lincoln, NE 68509

•'fc

I declare under penalty of prejury that the foregoing is true and correct.
Executed on this 2nd day or August, 2021.

Dank J
Hernandez Frantf, Von Loh
601 Calvert Street, Suite A
Lincoln, NE 68502
(402) 853-6913
darik@hfvllaw. com
Attorney for Petitioner

